                 

                 

                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    Response to Congressional
                    Request on EPA Enforcement
                    Report No. 13-P-0168                    February 28, 2013




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Katie Butler
                                                   Dan Engelberg
                                                   Genevieve Borg Soule
                                                   Danielle Tesch




Abbreviations

CAA           Clean Air Act
CERCLA        Comprehensive Environmental Response, Compensation, and Liability Act
              (Superfund)
CWA           Clean Water Act
DOJ           U.S. Department of Justice
ECHO          Enforcement and Compliance History Online
EPA           U.S. Environmental Protection Agency
FTEs          Full-Time Equivalents
FY            Fiscal Year
IR            Injunctive Relief
MERs          Monetary Enforcement Results
NEIs          National Enforcement Initiatives
NPDES         National Pollutant Discharge Elimination System
OECA          Office of Enforcement and Compliance Assurance
OIG           Office of Inspector General
SDWA          Safe Drinking Water Act
SEPs          Supplemental Environmental Projects




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue, NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                                                                                                            13-P-0168
                        U.S. Environmental Protection Agency                                         February 28, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review               Response to Congressional Request on
We conducted this review in          EPA Enforcement
response to a congressional
request for information about         What We Found
U.S. Environmental Protection
Agency (EPA) enforcement             EPA enforcement data show that the amount of monetary results EPA regions
results overall and, specifically,   achieve from concluded enforcement cases varies from year to year and from
for Region 7 in fiscal year (FY)     region to region. While the number of enforcement cases concluded for FYs 2006
2010.                                through 2011 remained relatively constant, the overall monetary results varied.
                                     The variations are linked to when and where in the nation a few large cases are
EPA is responsible for               concluded. These few large cases can result in unusually large monetary results
enforcing many environmental         in any given year. National Enforcement Initiatives (NEIs) set by EPA’s Office of
laws across the country. EPA         Enforcement and Compliance Assurance drove the majority of these large cases.
directs much of its enforcement
towards sectors with histories       In FY 2010, Region 7 concluded two enforcement cases with large monetary
of high noncompliance as part        results. Both cases were pursued under EPA’s NEIs. The two cases accounted
of its national enforcement          for 24 percent of all of EPA’s monetary enforcement results for FY 2010 and
initiatives. EPA annually reports    98 percent of Region 7’s monetary results for FY 2010. Region 7’s results
environmental and monetary           typically fell in the middle of the 10 regions. We found that from FYs 2006
enforcement results to               through 2011, Region 7’s enforcement results, regulated facilities, and staff
Congress and the public.             allocated to enforcement were proportional with each other. Large cases took
                                     several years to close and relied on coordination with the U.S. Department of
This report addresses the            Justice, companies, and courts, which meant that EPA did not have full control
following EPA Goal or                over the year in which a case was settled.
Cross-Cutting Strategy:
                                     There are no recommendations associated with this report. The Office of
	 Enforcing environmental           Enforcement and Compliance Assurance and Region 7 agreed with the Office of
   laws                              Inspector General’s conclusion that enforcement results can vary from year to
                                     year and from region to region based on when and where large cases are
                                     concluded.




For further information, contact
our Office of Congressional and
Public Affairs at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2013/
20130228-13-P-0168.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                           THE INSPECTOR GENERAL




                                       February 28, 2013

MEMORANDUM

SUBJECT:	 Response to Congressional Request on EPA Enforcement
          Report No. 13-P-0168


FROM:          Arthur A. Elkins Jr.

TO:            Cynthia Giles
               Assistant Administrator for Enforcement and Compliance Assurance

               Karl Brooks 

               Regional Administrator, Region 7 



This is our report on the subject evaluation conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains results that describe
the problems the OIG has identified. This report represents the opinion of the OIG and does not
necessarily represent the final EPA position.

Because this report contains no recommendations, you are not required to respond to this report.
However, if you submit a response, it will be posted on the OIG’s public website, along with our
memorandum commenting on your response. Your response should be provided as an Adobe
PDF file that complies with the accessibility requirements of Section 508 of the Rehabilitation
Act of 1973, as amended. The final response should not contain data that you do not want to be
released to the public; if your response contains such data, you should identify the data for
redaction or removal along with corresponding justification. We have no objections to the further
release of this report to the public. We will post this report to our website at
http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Carolyn Copper,
Assistant Inspector General for Program Evaluation, at (202) 566-0829 or
copper.carolyn@epa.gov; or Dan Engelberg, Product Line Director, at (202) 566-0830 or
engelberg.dan@epa.gov.
Response to Congressional Request 	                                                                                       13-P-0168
on EPA Enforcement




                                   Table of Contents

Chapters
   1    Introduction ........................................................................................................       1


                Purpose .......................................................................................................     1

                Background .................................................................................................        1

                Scope and Methodology ..............................................................................                5     


   2    Results ................................................................................................................    7


                EPA’s Monetary Enforcement Results Varied From FYs 2006 

                   Through 2011. ........................................................................................           7

                Variations in Monetary Enforcement Results Are Linked to When
                   Large Cases Conclude ...........................................................................                 8

                The Proportion of Region 7 Enforcement Results, Facility Universe,
                  and Enforcement FTEs Are Similar ........................................................                        13 

                Conclusion ...................................................................................................     16 

                Agency Response and OIG Evaluation .......................................................                         16 


   Status of Recommendations and Potential Monetary Benefits..............................                                         17




Appendices
   A	   Region 7’s 2010 Annual Results News Release, December 6, 2010..............                                                18


   B	   Summary of Concluded Enforcement Cases With Monetary

        Enforcement Results Greater Than $1 Billion, FYs 2006-2011 ......................                                          19 


   C	   Agency Response to Draft Report ...................................................................                        22 


   D    D
        	 istribution .........................................................................................................    23 

                                          Chapter 1

                                          Introduction

Purpose
                 We conducted this review in response to a congressional request for information
                 about U.S. Environmental Protection Agency (EPA) enforcement results. We
                 addressed the following questions:

                     	 What are the trends in enforcement results stemming from EPA
                        enforcement actions (injunctive relief, supplemental environmental
                        projects, and penalties) over time [fiscal years (FYs) 2006 through
                        2011] and across regions?
                      What are the key factors explaining differences in enforcement results
                        stemming from EPA enforcement actions among EPA regions?
                      How do enforcement results stemming from EPA enforcement actions in
                        Region 7 compare to those in the rest of the EPA regions?

Background
                 EPA’s mission is to protect human health and the environment, ensuring that all
                 Americans are protected from significant risks where they live, learn, and work.
                 EPA administers programs under federal environmental statutes.1 Each of these
                 programs has specific regulations. EPA is tasked with enforcing these regulations
                 at approximately 40 million regulated federal and private entities. EPA’s Office of
                 Enforcement and Compliance Assurance (OECA) works with EPA’s 10 regional
                 offices, state and tribal governments, and other federal agencies to ensure that
                 federal laws and regulations are enforced fairly and effectively. EPA strives for a
                 nationally consistent enforcement policy to promote a level playing field among
                 regulated entities and to ensure that all Americans live in states that meet
                 minimum environmental standards.

                 EPA’s goal is to direct its core enforcement activities so that the Agency may
                 achieve the highest environmental benefits and reductions in risks to human
                 health and the environment.




1
 Federal environmental statutes include the Clean Air Act (CAA); Clean Water Act (CWA); Comprehensive
Environmental Response, Compensation, and Liability Act (CERCLA, or Superfund); Emergency Planning and
Community Right-to-Know Act; Federal Insecticide, Fungicide, and Rodenticide Act; Marine Protection, Research
and Sanctuaries Act; National Environmental Policy Act; Oil Pollution Act; Resource Conservation and Recovery
Act; Safe Drinking Water Act (SDWA); and Toxic Substances Control Act.


13-P-0168                                                                                                  1
            EPA Can Take Enforcement Actions When Violations Are Found

            When EPA finds that facilities have violated the law, it may take enforcement
            actions to correct any environmental damage and to deter future violations. These
            actions may be informal, such as notices of violation; or formal, such as
            administrative orders and seeking judicial orders or consent decrees. Depending
            on the severity of the violation, and on whether the violation was willfully or
            knowingly committed, EPA may also pursue criminal charges against an
            individual or corporate defendant.

            For each concluded enforcement case, EPA typically tracks two categories of
            results:

               	 Environmental results. These include environmental improvements
                  achieved through returning to compliance. OECA typically reports these
                  as “pounds of pollution reduced,” or a similar environmental or human
                  health improvement.

               	 Monetary enforcement results (MERs). These include financial costs to
                  the violator. OECA reports these in three ways: (1) injunctive relief (IR),
                  (2) supplemental environmental projects (SEPs), and (3) penalties (see
                  table 1). EPA considers money the violator agrees to spend on IR as
                  money the company should have spent complying with the law. IR makes
                  up the vast majority of MERs. Both IR and SEPs are investments made by
                  the company, which often result in an improvement to the environment.
                  For example, the violator agrees to decontaminate soil or reduce the
                  pollution produced by installing technology. Penalties are money paid
                  directly to the government. EPA also reports MERs associated with
                  criminal enforcement actions and violations of administrative and judicial
                  orders.




13-P-0168                                                                                 2
Table 1: Types of monetary results associated with concluded enforcement cases

          Monetary 
     enforcement results                      Description                                   Examples 
    Injunctive relief (IR)     The action that EPA orders a violator to      An energy company must install a 
                               take, through court or administrative          new cooling system to comply with 
                               order,2 in order to achieve and maintain       thermal discharge requirements in a 
                               compliance with environmental laws.            National Pollutant Discharge 
                               Facilities typically make these                Elimination System (NPDES) permit. 
                               investments over several years or even        A petroleum refinery must install 
                               decades, even though EPA reports the           controls to reduce emissions of air 
                               total investment amount in the year the        pollutants to permitted levels. 
                               case was concluded. 
    Supplemental               Environmental improvement projects            A wastewater treatment plant 
    environmental projects     that a violator agrees to perform as part      connects low‐income residents to its 
    (SEPs)                     of an enforcement settlement. These            system. 
                               projects supplement the projects              A company restores a section of 
                               required to correct the violations             stream impacted by a release of a 
                               (injunctive relief), and produce               toxic substance from its facility. 
                               environmental or public health and 
                               safety benefits beyond those required 
                               by law. EPA may grant a credit to the 
                               violator to partially offset the penalty 
                               imposed during settlement. 
    Penalties                  The money the violator pays in                A company must pay a penalty of  
                               connection with noncompliance or               $1 million for NPDES permit 
                               violation. Penalty amounts are                 violations at 61 of its wastewater 
                               established by criteria from relevant          treatment plants. 
                               environmental law or agency policy.           An energy company must pay 
                               Criteria affecting penalty amounts may         $13 million in penalties for illegally 
                               include prior knowledge of regulations,        discharging harmful substances to 
                               monetary benefits the violator received        surface waters without a permit. 
                               by not complying and severity of the 
                               violation. 
Source: Office of Inspector General (OIG) summary based on OECA website and enforcement case summaries.



                      EPA Reports Annual Enforcement Results to the Public and Congress

                      Each fiscal year, EPA reports its enforcement results to the public and Congress
                      through its annual results process. Prior to releasing national year-end results,
                      OECA collects and validates data from the regions about their enforcement
                      activities. OECA refers to the final data as “certified data.” The annual results
                      provide overviews of the enforcement program, details about annual results (both
                      monetary and environmental), and year-to-year enforcement trends. The annual



2
  Technically, only courts can issue “injunctions.” However, EPA uses the term “injunctive relief” to refer to activity
required by both courts and administrative orders.


13-P-0168                                                                                                           3
                   reports often highlight specific accomplishments, like cases that resulted in large
                   MERs and/or environmental results.3

                   In addition to OECA’s annual reporting, individual EPA regions may describe
                   their year-end results to the public in press releases. For example, Region 7 issued
                   a press release on December 6, 2010, describing its enforcement results in
                   FY 2010. The press release stated that in FY 2010 Region 7 concluded cases
                   resulting in over $3 billion in IR. The press release also said this dollar amount
                   accounted for 31 percent of the total for EPA in FY 2010 (see appendix A).
                   Table 2 summarizes EPA’s monetary enforcement results for FYs 2006-2011.4

Table 2: EPA annual monetary enforcement results for all regions by year, FYs 2006-2011

                                                                         Total                                   Average 
               Number of         Injunctive      Supplemental        administrative                             monetary 
               concluded            relief       environmental        and  judicial      Enforcement        commitment per 
    Fiscal    enforcement          ($ in            projects           penalties             total           concluded case 
    Year         cases           millions)       ($ in millions)     ($ in millions)     ($ in millions)      ($ in millions) 
    2006              3,593           $4,801                  $69               $103             $4,973                 $1.38 
    2007              3,403         $10,538                   $30                $62            $10,631                 $3.12 
    2008              3,541         $11,706                   $39               $122            $11,866                 $3.35 
    2009              3,670           $5,319                  $41                $87             $5,447                 $1.48 
    2010              3,292         $12,111                   $24                $92            $12,227                 $3.71 
    2011              3,206         $19,050                   $25               $140            $19,215                 $5.99 
Source: OIG summary of OECA’s certified annual results by fiscal year.


                   EPA Sets National Priorities for Its Enforcement Activities

                   Every 3 years, EPA sets national enforcement initiatives (NEIs) to focus civil and
                   criminal enforcement resources and expertise on serious environmental problems.
                   EPA’s NEIs have focused on pollution problems such as mineral processing, air
                   toxics/air pollution, stormwater, and petroleum refineries.5 EPA’s current NEIs
                   for FYs 2011-2013 focus on five areas:

                            Reducing air pollution from the largest sources and cutting hazardous air
                             pollutants.
                            Keeping raw sewage and contaminated stormwater out of the nation’s
                             waters.
                            Preventing animal waste from contaminating surface and groundwater.


3
  FY 2011 year-end results are reported at 

http://www.epa.gov/compliance/resources/reports/endofyear/eoy2011/eoy-data.html. 

4
  All of the dollar amounts presented in this report are real dollars (i.e., not adjusted for inflation) as reported in the 

annual results for that given fiscal year.

5
  The petroleum refineries NEI was returned to the core enforcement program after the FY 2005 through

FY 2007 cycle, but the others have carried over to the FY 2011 through FY 2013 NEIs.



13-P-0168                                                                                                                4
                          Ensuring energy extraction activities comply with environmental laws.
                          Reducing pollution from mineral processing operations.

                  OECA and regions negotiate region-specific enforcement commitments to support
                  the goals and measures of the NEIs. Depending on the level of progress, EPA may
                  either carry over a NEI to the next cycle, or consider the issue addressed and
                  return the program to the core enforcement program.

Scope and Methodology
                  We conducted this evaluation in accordance with generally accepted government
                  auditing standards. Those standards require that we plan and perform the
                  evaluation to obtain sufficient, appropriate evidence to provide a reasonable basis
                  for our findings and conclusions based on our review objectives. We believe that
                  the evidence obtained provides a reasonable basis for our analysis and results
                  based on our evaluation objectives. We performed our review from July to
                  December 2012.

                  To answer this congressional request, we evaluated EPA enforcement data from
                  EPA’s Enforcement and Compliance History Online (ECHO) database and
                  supplemental region-certified data provided by OECA. We reviewed the MERs
                  associated with civil enforcement cases (including Superfund)6 concluded by EPA
                  regions. We used the real dollar amounts as reported in the Agency’s annual
                  enforcement results reports. The period for our review was from FYs 2006
                  through 2011. We selected this timeframe because it gives a sense of the number
                  and types of enforcement cases concluded by EPA over different administrations.
                  We did not include criminal actions because the request focused on civil
                  enforcement results. We also did not include cases taken by EPA headquarters
                  since the focus of this review was regional results.

                  To examine trends in EPA’s regional MERs, we obtained annual enforcement
                  results for all 10 regions over our study period and employed descriptive trend
                  analysis techniques. This analysis involved plotting values from year to year and
                  describing the shape of the plot. We also calculated the average over the 6-year
                  period and compared yearly results by calculating the percent change from the
                  average for each year.

                  We also analyzed annual enforcement results for IR, SEPs, and penalties for each
                  region. We assessed the extent of variability in regional MERs by identifying the
                  frequency with which these results exceeded 150 percent of the 6-year average for
                  that region. We chose this threshold after an initial assessment of the data
                  demonstrated that the threshold captured all years in which a substantial variation
                  from the 6-year average occurred. Once we identified years when results
5
 This includes concluded Superfund cases, which are different from other civil enforcement cases since they focus
on locating and negotiating with the parties responsible for contamination at a site, and accomplishing site cleanup.
Further information about Superfund enforcement is at http://www.epa.gov/oecaerth/cleanup/superfund/index.html.


13-P-0168                                                                                                         5
                exceeded 150 percent of the 6-year average, we determined the key factors
                leading to differences in MERs by identifying the cases that contributed to the
                substantial variations from the averages. We interviewed OECA staff and
                managers and reviewed EPA enforcement data to identify the reasons for
                variations over this period.

                To determine whether the enforcement results in Region 7 were different from
                those in other EPA regions, we analyzed the distribution of the region’s MERs
                over the selected time period. We also analyzed the distribution of EPA’s
                regulated facilities and full-time equivalents (FTEs or staff) across the regions.
                We also identified the cases that contributed to Region 7’s FY 2010 enforcement
                results through a review of EPA’s enforcement data and interviews with Region 7
                enforcement personnel. Based on the objectives of the review and the analysis
                performed, the OIG has no recommendations to report.

                Data Limitations

                We obtained our enforcement data from EPA’s publicly available and certified
                enforcement data. There are limitations in using these data to reach conclusions
                about the number of regulated facilities in an EPA region. First, EPA relies on the
                number of permits issued as a proxy for the number of facilities regulated by the
                agency. However, a single facility may have multiple permits, so the permit count
                is higher than the facility count. Second, EPA does not know the location of all
                regulated facilities.7 This results in underreporting for the facility universe.
                However, EPA has also found that its facility universe includes closed facilities,
                which results in overreporting the facility universe. Third, because facility
                complexity varies and complex facilities require more inspection and enforcement
                resources, the ratio of permits to resources may not provide a precise picture of
                the regions’ requirements and capabilities. A region with a smaller number of
                more complex facilities could have a larger enforcement burden than a region
                with a larger number of less-complex facilities. Facility numbers do not capture
                this nuance. After considering these limitations, we do not believe that any of the
                limitations have material implications for our results.




7
 For more information, see the OIG reports Limited Knowledge of the Universe of Regulated Entities Impedes
EPA’s Ability to Demonstrate Changes in Regulatory Compliance (Report No. 2005-P-00024, issued September 19,
2005) and EPA Needs to Further Improve How It Manages Its Oil Pollution Prevention Program (Report No.
12-P-0253, issued February 6, 2012).


13-P-0168                                                                                                6
                                            Chapter 2

                                                  Results
                 EPA regions’ MERs vary from year to year. A few extremely high-value
                 enforcement cases that were concluded explain large variations across regions and
                 over time. For FYs 2006 through 2011, the annual number of cases EPA regions
                 concluded remained relatively constant. However, over the 6 years, the MERs
                 stemming from these cases varied. A factor linked to this variation was the timing
                 and distribution of a few large cases concluded in a given year. In FY 2010,
                 Region 7 results included two large concluded cases that accounted for 24 percent
                 of nationwide enforcement results. However, FY 2010 was not an ordinary year in
                 Region 7. Over the 6-year period, Region 7 MERs accounted for only 6 percent of
                 national results on average. In addition, we found that for FYs 2006 through 2011,
                 Region 7 enforcement results were in proportion to both the number of regulated
                 facilities and the number of enforcement FTEs in the region. Based on this
                 information, the number of concluded cases and associated MERs in Region 7 for
                 these years were similar to the level of activity in the other nine regions.

EPA’s Monetary Enforcement Results Varied From
FYs 2006 Through 2011
                 Although the annual MERs varied from year to year, the number of concluded
                 cases remained relatively constant across EPA regions and over our review
                 period. Most of EPA’s MERs were in the form of injunctive relief, focused on
                 completing tasks that will return and keep facilities in compliance. IR made up
                 nearly 99 percent of the $64 billion in MERs assessed in the study period.8
                 Penalties and SEPs accounted for under 2 percent of MERs. In addition, MERs
                 also varied across regions.

                 EPA enforcement data for the period reviewed (FYs 2006 through 2011) indicate
                 that the number of cases EPA regions concluded remained relatively constant,
                 differing by an average of 4 percent from the 6-year average over the study period
                 (see table 3). However, the monetary results associated with these cases
                 fluctuated widely from year to year, differing by an average of 35 percent from
                 the 6-year average. Therefore, an increase in the number of concluded cases does
                 not necessarily lead to an increase in MERs (or vice versa). For example, in
                 FY 2009 the number of concluded cases increased while the MERs decreased.




8
 IR is substantially higher than penalties and SEPs because IR reflects long-term investments (e.g., 15-20 years)
made by companies to correct noncompliance. However, EPA reports the total amount in the year that the case is
concluded.


13-P-0168                                                                                                           7
            Table 3: Comparison of the percent change from the 6-year average for concluded
            cases and MERs

                                               Percent difference       Total monetary           Percent 
                              Number of           from 6‐year            enforcement         difference from 
                              concluded        average number of              results        6‐year average 
             Fiscal Year        cases           concluded cases*          ($ in billions)         MERs* 
                2006                 3,593                     4%                      $4.9              54% 
                2007                  3,403                      1%                   $10.6              1% 
                2008                  3,541                      3%                   $11.9             11% 
                2009                  3,670                      6%                    $5.3             51% 
                2010                  3,292                      5%                   $12.3             15% 
                 2011               3,206                       7%               $19.1                79% 
                6‐year 
                                    3,451                        ‐‐              $10.7                  ‐‐
               Average 
               Average 
               percent                   ‐‐                     4%                   ‐‐               35% 
              difference 
               * Above 6‐year average indicated in black text; below 6‐year average indicated in red text. 
            Source: OIG analysis of OECA’s certified annual results by fiscal year.

            Monetary enforcement results varied across the three categories (IRs, SEPs, and
            penalties) as well. Over the 6-year period we reviewed, IR differed 173 percent
            between the highest and lowest regions. This variation also occurred within
            individual regions. For example, Region 7’s IR amounts differed 191 percent
            from its lowest to highest years. Similar results were also apparent for SEPs.

            Penalties varied 153 percent between the highest and lowest region over the study
            period. For an individual region, Region 10 showed the largest variation, posting
            a 163-percent difference between the highest and lowest year.

Variations in Monetary Enforcement Results Are Linked to When
Large Cases Conclude
            For FYs 2006 through 2011, the conclusion of a few cases with large monetary
            results influenced MERs variation. When regions concluded large cases, the
            overall value of these cases increased those regions’ MERs in that year. This led
            to variability in MERs from year to year, both within and across regions. Due to
            multiple stakeholders in these types of cases (e.g., the defendants, the U.S.
            Department of Justice (DOJ), and others), EPA regions had limited control over
            when a large case settled. Additionally, EPA’s NEIs drove the majority of these
            large cases. (These cases are italicized in figures 1 through 3).

            In years when a region reported MERs significantly higher than the 6-year
            average, the region concluded one or more large cases in that year. See figures 1
            through 3 for more information on these cases.



13-P-0168                                                                                                  8
Figure 1: The value of injunctive relief by region and the contributing cases, FYs 2006-2011


                      $5 


                      $4 
                                                                                                                                                   2006
Billions of Dollars




                      $3                                                                                                                           2007
                                                                                                                                                   2008
                                                                                                                                                   2009
                      $2 
                                                                                                                                                   2010
                                                                                                                                                   2011
                      $1 


                      $0 
                               R1         R2          R3         R4         R5          R6         R7         R8          R9        R10


                            Cases contributing to higher than normal injunctive relief results
   2006                     Region 6 - Valero Refining Company, $457 million; ExxonMobil Corporation, $193 million; ConoccoPhillips,
                               $192 million; ExxonMobil and Supply Baton Rouge Refinery, $154 million. These four cases accounted for 76% of
                               Region 6’s injunctive relief in 2006.



   2007                      Region 2 - Prasa V -Puerto Rico Aqueduct and Sewer Authority, $1.7 billion; PSEG Fossil, LLC (CD Amendment),
                               $1.1 billion; New York City Department of Environmental Protection, $930 million. These cases accounted for 91% of
                               Region 2’s total injunctive relief for 2007.
   2008                      Region 1 - Brayton Point, $500 million. This case accounted for 75% of Region 1’s injunctive relief for 2008.
                             Region 3 - American Electric Power Company (national case), $1.9 billion; Allegheny County Sanitary Authority,
                               $1.4 billion. These cases accounted for 96% of Region 3’s injunctive relief for 2008.
                             Region 8 - Kennecott South Zone Superfund Site, $197 million; Libby Asbestos Site, $191 million; Atlantic Richfield
                               Corporation, $97 million. These three cases accounted for 84% of Region 8’s Injunctive Relief for 2008.

   2009                      Region 10 - Asarco Bankruptcy (NC) CDA Basin, $373 million. This case accounted for 77% of Region 10’s
                               injunctive relief for 2009.

   2010                      Region 5 - Hamilton County, $1.79 billion; Lyondell Chemical Company, Inc, et al. (NC), $983 million; Enbridge
                               Energy Partners, L.P. Order (Marshall), $600 million. These three cases accounted for 76% of Region 5’s injunctive
                               relief for 2010.
                             Region 7 - City of Kansas City, Missouri, $2.4 billion; Westar Energy Inc, $556 million. These two cases accounted
                               for 97% of Region 7’s injunctive relief in 2010.

   2011                      Region 2 - General Electric Company, $2.1 billion; Hovensa LLC (Global), $700 million. These two cases accounted
                               for 88% of Region 2’s injunctive relief in 2011.
                             Region 4 - Tennessee Valley Authority, $5 billion, This case accounted for 92% of Region 4’s injunctive relief in
                               2011.
                             Region 5 - NEORDS-Cleveland, $3 billion; NIPSCO, $609 million; City of Evansville, $500 million. These three
                               cases accounted for 86% of Region 5’s injunctive relief for 2011.
                             Region 9 - Honolulu, City and County, $3.7 billion. This case accounted for 94% of Region 9’s injunctive relief for
                               2011.
                             Region 10 - Coeur D'Alene Basin Hecla Mining, $114 million; BP Exploration (Alaska) Inc, $60.5 million; EMF J.R.
                               Simplot Company, $50 million. These three cases accounted for 65% of Region 10’s injunctive relief for 2011.

Source: OIG analysis of EPA enforcement data for FYs 2006-2011. Cases in italic print were part of an NEI.




13-P-0168                                                                                                                                            9
Figure 2: The value of supplemental environmental projects by region and the contributing cases,
FYs 2006-2011
    $18


                      $16


                      $14

                                                                                                                                                 2006
                      $12
Millions of Dollars




                                                                                                                                                 2007
                      $10                                                                                                                        2008
                                                                                                                                                 2009
                       $8
                                                                                                                                                 2010
                       $6                                                                                                                        2011

                       $4

                       $2

                       $0
                                R1         R2          R3         R4         R5         R6         R7         R8          R9        R10


                             Cases contributing to higher than normal supplemental environmental projects results
         2006                 Region 2 - ConocoPhillips, $8 million; Valero Refining Company, New Jersey, $1.2 million. These two cases
                                accounted for 72% of Region 2’s total SEP value for 2006.
                              Region 3 - Sunoco Inc., $3.9 million; Washington Suburban Sanitary Commission, $4.4 million; Motiva Enterprises
                                LLC, $6.4 million. These three cases accounted for 87% of Region 3’s total SEP value in 2006.
                              Region 5 - ExxonMobil Corporation, $2.2 million; Eramet Marietta Inc., $2 million; Archer Daniels Midland, $1 million;
                                Conoco Inc. Wood River Products, $900,000. These four cases accounted for 52% of Region 5’s total SEP value for
                                2006.
                              Region 6 - Valero Refining, $3 million; ExxonMobil Refining Complex, $1 million; City of Dallas, $1.2 million;
                                Oxy Vinyls Limited, $964,000. These four cases accounted for 61% of Region 6’s total SEP value for 2006.
                              Region 7 - Cargill Inc., $2 million. This case accounted for 70% of Region 7’s total SEP value for 2006.
                              Region 8 - ExxonMobil Refining and Supply Company, $1.8 million. This case accounted for 85% of Region 8’s total
                                SEP value for 2006.

         2007                 Region 9 - Nevada Power Company, $9.7 million. This case accounted for 89% of Region 9’s total SEP value for
                                2007.
         2008                 Region 3 - Merck and Company, $4.5 million; Allegheny County Sanitary Authority, $3 million; Southeastern
                                Transportation Authority, $1.1 million. These cases accounted for 89% of Region 3’s total SEP value for 2008.
                              Region 6 - Equistar Global (National Case), $6 million; Premcor Refining Group (National Case), $2.3 million. These
                                two cases accounted for 86% of Region 6’s total SEP value for 2008.
                              Region 10 - USDOE Hanford Facility, $837,000; Thea Foss Settlement, $268,500; ConocoPhillips Company,
                                $200,000. These three cases accounted for 77% of Region 10’s total SEP value for 2008.
         2009                 Region 1 - Franklin Park Apartments (The Community Builders), $1.9 million. This case accounted for 61% of
                                Region 1’s total SEP value in 2009.
                              Region 4 - Metropolitan Government of Nashville and Davidson County, TN, $2.8 million; Memphis Light, Gas, and
                                Water Division, $10 million. These two cases accounted for 92% of Region 4’s total SEP value in 2009.
                              Region 6 - BP North American, $6 million; Shintech Inc, $4.7 million. These cases accounted for 91% of Region 6’s
                                total SEP value for 2009.
         2010                 Region 7 - City of Kansas City, Missouri, $1.4 million; Kaneb Pipeline Operating Partnership, LP, A Nustar Energy LP
                                Company, $762,302. These two cases accounted for 63% of Region 7’s total SEP value for 2010.
                              Region 8 - McWane Inc., $1 million. This case accounted for 81% of Region 8’s total SEP value for 2010.
         2011                None

 Source: OIG analysis of EPA enforcement data for FYs 2006-2011. Cases in italic print were part of an NEI.




13-P-0168                                                                                                                                         10
Figure 3: Penalty amounts by region and the contributing cases, FYs 2006-2011
                      $40


                      $35


                      $30

                                                                                                                                                2006
Millions of Dollars




                      $25                                                                                                                       2007
                                                                                                                                                2008
                      $20                                                                                                                       2009
                                                                                                                                                2010
                      $15                                                                                                                       2011

                      $10

                       $5

                       $0
                                 R1
        R2
        R3
        R4
        R5
        R6
        R7
        R8
        R9
        R10


                             Cases contributing to higher than normal total penalties results
  2006                        Region 4 - United Organics Corporation & Malcolm Lieberman, $32.8 million. This case accounted for 84% of
                                Region 4’s penalties in 2006.

  2007                       None

  2008                        Region 3 - Massey Energy Company et al., $13.3 million; American Electric Power Company (National Case),
                                $6.2 million; Euclid of Virginia Inc., $3.2 million. These three cases accounted for 76% of Region 3’s penalties in 2008.

  2009                        Region 8 - Anadarko Petroleum Corporation, $1.05 million; Colorado Interstate Gas/Natural Buttes, $987,757;
                                Citation Oil and Gas Corporation, $280,000; Miller Dyer & Company, $250,000; Frontier Refining, $242,600.
                                These cases accounted for 67% of Region 8’s penalties for 2009.

  2010                       None

  2011                        Region 6 - Citgo Petroleum Corporation, $6 million; BP Texas City, $15 million. These two cases accounted for 72%
                                of Region 6’s penalties in 2011.
                              Region 8 - EOG Resources, $411,000; QEP Energy Company, $381,000; Slawson Exploration Company, $372,000;
                                Riverbend Compressor Station, $350,000. Alfred Barone-Bar One Ranch, $275,000; Marathon Oil Company,
                                $294,000.These cases accounted for 46% of Region 8’s penalties in 2011
                              Region 10 - BP Exploration (Alaska) Inc, $20.5 million. This case accounted for 81% of Region 10’s penalties in
                                2011.

Source: OIG analysis of EPA enforcement data for FYs 2006-2011. Cases in italic print were part of an NEI.




13-P-0168                                                                                                                                         11
            Annual MERs had an average percent change of 35 percent from the 6-year
            average. There were 14 cases with MERs greater than $1 billion that accounted
            for 48 percent of all of the MERs during the study period (figure 4). These
            14 cases represent 0.07 percent of all cases concluded during the study period.
            (See appendix B for more information on the individual cases). However, when
            these 14 large cases are excluded, the average percent change is only 9 percent.

            Figure 4: Total monetary enforcement results, FYs 2006-2011

                                   $25 


                                   $20 
             Billions of Dollars




                                   $15 
                                                                                     Cases > $1B

                                   $10                                               All Other Cases


                                    $5 


                                   $‐
                                          2006   2007   2008   2009   2010   2011


            Source: OIG analysis of EPA enforcement data for FYs 2006-2011.

            The year with the largest MERs (FY 2011) included four cases with results over
            $1 billion. These four cases accounted for 72 percent of the national total
            (see figure 4). The largest concluded case addressed violations of the Clean Air
            Act by the Tennessee Valley Authority in Region 4. In this case, EPA and the
            DOJ reached a $5 billion agreement with the Tennessee Valley Authority to build
            new and upgraded state-of-the-art pollution controls. This case represented
            26 percent of that year’s national MERs.

            EPA’s NEIs drive the majority of these large cases. During our study period, on
            average 64 percent of the top 25 cases in a given year (measured in total MERs)
            were part of a NEI. Additionally, 12 of the 14 cases with results over $1 billion
            were part of a NEI. These cases vary by region mainly due to the geographic
            location of the types of facilities under a given initiative. Geographic variation
            causes variability in results stemming from those cases. For example, Region 6
            has approximately 55 active petroleum refineries while Region 7 only has 3, so
            Region 6 would most likely report more enforcement cases under the petroleum
            refinery initiative. The results from those cases could strongly influence annual
            results.




13-P-0168                                                                                              12
            Adding to the variability in annual enforcement results is the fact that regions do
            not control the timing of when these large cases reach conclusion. Instead, the
            timing is based on EPA working with outside stakeholders, such as DOJ and
            defendants, to help them reach settlements. This can take several years. For
            example, in FY 2010, Region 7 concluded two large cases that began in FY 2004.

            Additionally, many large MERs, such as multi-billion dollar IR agreements with
            noncompliant facilities, include costs that facilities will incur over many years.
            However, EPA reports the total result in the year the case concludes. For
            example, a settlement with a municipality may require it to install billions of
            dollars of pollution controls over a 25-year period. The municipality may spend
            only a portion of the cost in any single year, but EPA reports the entire amount in
            the year the case concludes.

The Proportion of Region 7 Enforcement Results, Facility Universe,
and Enforcement FTEs Are Similar
            When we compared the regions’ enforcement resources, responsibilities, and
            results, Region 7 enforcement results were similar to other regions’ results.
            FY 2010 represented an atypical year for Region 7. During this year, the region
            settled two large NEI cases, which substantially increased the region’s MERs for
            FY 2010.

            Based on estimates of permits that require EPA oversight, Region 7 was
            responsible for close to 8 percent of the EPA regulated universe (see figure 5a).
            Region 7 also employed close to 7 percent of enforcement personnel over the
            6-year study period (see figure 5b). On average, Region 7 concluded almost
            8 percent of the enforcement cases (see figure 5c), and achieved 6.2 percent of the
            national monetary enforcement results over this period (see figure 5d). The
            comparison suggests that the proportion of Region 7’s concluded cases and MERs
            is similar to the proportion of its regulatory responsibilities and enforcement
            resources.




13-P-0168                                                                                  13
Figure 5: Region 7 compared with other EPA regions according to: (a) percent of regulated
facilities, (b) percent of FTEs, (c) percent of total enforcement actions, and (d) percent of total
enforcement monetary commitments, FYs 2006-2011


(a) Percent of regulated facilities                      (b) Percent of FTEs

         4.5%                                      R1

                           6.1%                    R2
                          6.9% 6.8%
   4.5%
        8.3%
                                   11.5%           R3
                  9.6%                   10.5%
                                                   R4

  7.8%                                                               6.6%
                                       9.1%        R5
                                               11.1%
                                                   R6
        6.6%
      9.6%
                                                   R7

                                    18.4%                             10.7%                        14.0%
                                                   R8

                  20.2%
                                                   R9
                              17.0%
                                                   R10


(c) Percent of total enforcement actions                 (d) Percent of total monetary commitments

                                                                                    1.8%    3.4%

                       6.5% 4.9%
                7.5%                                                        13.2%
                                   13.1%                       2.0%
                                                                                               16.0%
           5.8%
                                                               6.2%
   7.6%                                    8.8%
                                                                                                       9.2%
                                                                     6.0%


            18.8%                    17.3%
                                                                                               17.3%
                                                                            24.8%
                          9.7%



Source: OIG analysis of EPA enforcement data for FYs 2006-2011.



                  Region 7’s FY 2010 Monetary Enforcement Results Were Atypical

                  FY 2010 was an atypical year because it was the only year in our study period
                  when Region 7’s results significantly exceeded the 6-year national average. In
                  FY 2004, Region 7 began work on two large cases that concluded in FY 2010.
                  The results from these cases accounted for over 97 percent of Region 7’s MERs
                  for that year. Based on the results from these two cases, Region 7’s IR accounted


13-P-0168                                                                                                     14
            for approximately 24 percent of the national total for that year. However, this was
            atypical of Region 7’s annual results.

            Over the 6-year period, Region 7’s IR on average accounted for slightly more
            than 6 percent of the national total. Region 7’s results typically fell in the middle
            of the 10 EPA regions. It was the sixth highest region for both number of
            concluded cases and monetary results. Region 7 was responsible for close to
            8 percent on average of the concluded cases (see figure 5c) and assessed slightly
            more than 6 percent of the overall monetary enforcement results (see figure 5d).
            By these measures, Region 7’s enforcement results were proportional to its
            resources and regulatory responsibility.

            NEIs Drive Large Cases in Region 7

            As discussed earlier, NEIs frequently drive atypical enforcement results in all
            EPA regions. As also mentioned previously in this report, in FY 2010 Region 7
            settled two large cases that accounted for over 97 percent of its MERs for that
            year. These two cases resulted in Region 7 annual results for IR that were
            substantially greater than any other year between FY 2006 and FY 2010. They
            also resulted in a projected environmental improvement of over 200 million
            pounds of air and water pollution reduced, treated, or eliminated because of the
            enforcement actions.

            Region 7 developed these two cases as part of two EPA NEIs to address
            municipal combined sewer overflows and combined sewer overflows, and coal-
            fired power plants. These cases took several years of research and negotiation to
            reach conclusion. Both cases began in FY 2004 but concluded in FY 2010, so the
            results reported in FY 2010 were the result of EPA, DOJ, and regional activities
            over the previous 6 years. Region 7 was not alone in settling significant cases
            under the NEIs during the study period; other EPA regions participated in the
            initiatives as well (see examples below).

               	 The larger case addressed CWA combined sewer overflows/combined
                  sewer overflows violations in the City of Kansas City, Missouri. The region
                  developed this case as part of EPA’s NEI to improve compliance with
                  combined sewer regulations. This case included IR of approximately
                  $2.4 billion, a civil penalty of $600,000, and a SEP of about $1.4 million.
                  The IR amount for this case accounted for approximately 79 percent of the
                  Region 7 total and 20 percent of the national total for 2010, and consisted
                  of projects the municipality would implement over 25 years. EPA has
                  concluded several similar cases under this initiative across the United
                  States. For example, other significant CWA combined sewer overflows
                  cases included a Region 5 case against the City of Cleveland, which was
                  concluded in FY 2011 and resulted in over $3 billion in monetary
                  enforcement results; and a Region 3 case against the Allegheny County
                  Sanitation Authority, which resulted in $1.4 billion in enforcement results.



13-P-0168                                                                                     15
               	 The smaller of the two cases Region 7 concluded in FY 2010 addressed
                  violations of the Clean Air Act at a Westar Energy power plant in Topeka,
                  Kansas. The region developed the case as a part of EPA’s NEI to improve
                  compliance at coal-fired power plants. The case resulted in $556 million in
                  IR and included a $2.75 million penalty. The IR in this case accounted for
                  over 18 percent of the Region 7 total and 5 percent of the national total in
                  FY 2010. Other EPA regions concluded coal-fired power plant cases during
                  the study period, including a 2011 Region 4 case against the Tennessee
                  Valley Authority resulting in over $5 billion in MERs.

            In other years, different regions showed larger than typical results for similar
            reasons (see figures 1 through 3).

Conclusion
            Enforcement is a necessary tool for ensuring that entities regulated under EPA’s
            environmental programs meet their obligations. During our study period, large
            case conclusions determined the size of monetary enforcement results in a given
            year. Due to yearly variations in the MERs of concluded cases, examining results
            for a single region or a single year may be misleading. More than a single year or
            result should be looked at when trying to understand a region’s pattern of
            enforcement activity. For Region 7, two NEI enforcement cases that began in
            2004 and ultimately concluded in FY 2010 drove FY 2010 MERs. Due to the
            variability and timing of large cases, EPA cannot reliably predict when cases will
            contribute to future annual MERs.

Agency Response and OIG Evaluation
            We received joint comments on the draft report from OECA and Region 7 on
            January 18, 2013 (see appendix C). OECA and Region 7 agreed with the OIG’s
            conclusion that enforcement results can vary from year to year and from region to
            region based on when and where large cases are concluded. We made changes to
            the report where appropriate.




13-P-0168                                                                                      16
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                POTENTIAL MONETARY
                                                  RECOMMENDATIONS                                                BENEFITS (in $000s)

                                                                                                    Planned
    Rec.    Page                                                                                   Completion   Claimed    Agreed-To
    No.      No.                        Subject                        Status1   Action Official      Date      Amount      Amount

                                  No recommendations




1    O = Recommendation is open with agreed-to corrective actions pending.

     C = Recommendation is closed with all agreed-to actions completed.

     U = Recommendation is unresolved with resolution efforts in progress.





13-P-0168                                                                                                                       17
                                                                                               Appendix A

       Region 7’s 2010 Annual Results News Release, 

                     December 6, 2010


EPA Region 7 Compliance and Enforcement Actions in 2010 Result in Record
$3 Billion in Pollution Control and Cleanup                Release Date: 12/06/2010
 
Contact Information: Chris Whitley, 913-551-7394, whitley.christopher@epa.gov

Environmental News
FOR IMMEDIATE RELEASE

(Kansas City, Kan., Dec. 6, 2010) - Environmental compliance and enforcement activities concluded by
EPA Region 7 during fiscal year 2010 set a new record, securing more than $3 billion in investments in
pollution control and cleanup as a result of legal actions taken against polluters.

Region 7’s total of more than $3 billion in secured injunctive relief accounted for fully 31 percent of EPA’s
national total for the fiscal year, which ended September 30.

Region 7’s actions will result in respondents in Iowa, Kansas, Missouri, Nebraska and on tribal lands
eliminating more than 470 million pounds of pollutants, and implementing more than $3 million in
Supplemental Environmental Projects.

Region 7’s targeted actions to achieve EPA’s National Priorities – including reducing harmful discharges
of pollutants into rivers and streams, and reducing air pollution from major industrial sources – will further
result in the reduction, treatment, minimization or disposal of more than 227 million pounds of pollutants.

“Region 7’s 15 million people benefited from a remarkable year of progress toward a cleaner and safer
environment,” Regional Administrator Karl Brooks said. “Our EPA team that links environmental
professionals in program staff with skilled attorneys in our Office of Regional Counsel worked effectively
with state and federal partners to gain these important results.”

A report of Region 7’s Fiscal Year 2010 Compliance and Enforcement Annual Results, including
statistical summaries and state-by-state highlights, along with links to information about EPA’s national
environmental enforcement and compliance activity, is available online at:
www.epa.gov/region07/enforcement_compliance/end_of_year_10_results.htm

This year’s national reporting of annual results includes an enhanced mapping tool that allows the public
to view detailed information about enforcement actions taken at more than 4,500 facilities across the U.S.
and its territories. The mapping tool shows facilities and sites where civil and criminal enforcement actions
were taken for alleged violations of U.S. environmental laws. The tool also displays community-based
activities, including locations of environmental justice grants awarded during FY 2010, and Environmental
Justice Showcase Communities.
                                                      ###
     For a national summary of EPA’s compliance and enforcement results for fiscal year 2010, go to:
                  www.epa.gov/compliance/resources/reports/endofyear/eoy2010/index.html
Source: EPA Newsroom
http://yosemite.epa.gov/opa/admpress.nsf/e77fdd4f5afd88a3852576b3005a604f/418c95dfcd20be418525
77f100645d27!OpenDocument


13-P-0168                                                                                                 18
                                                                                                               Appendix B

           Summary of Concluded Enforcement Cases With 

             Monetary Enforcement Results Greater Than 

                      $1 Billion, FYs 2006-2011 


 
Fiscal                                                                                 Monetary 
Year                               Case                   Laws and       NEI      enforcement results 
              Case name           number  Case type  sections           (Y/N)          (rounded)                  Case summary 
          Sanitation District    04‐2005‐ Civil Judicial  CWA              Y     Federal penalty =        Civil enforcement violations 
          No. 1 of Northern      9011                      301/402               $138,200                 of Section 301 of CWA by 
          Kentucky                                                               SEP cost = $311,000      Sanitation District No. 1 of 
                                                                                 Injunctive relief =      Northern Kentucky for 
                                                                                 $1.1 billion             unauthorized discharges of 
                                                                                                          pollutants into waters of 
                                                                                                          the U.S. and other NPDES 
                                                                                                          permit deficiencies. 
          PSE&G Fossil, LLC      02‐2001‐ Civil Judicial    CAA 165,       Y     Federal penalty =        PSE&G made modifications 
                                 0020                       173, 113A            $4.25 million            at its Hudson, Mercer, and 
                                                                                 Injunctive relief =      Bergen facilities without 
                                                                                 $1.1 billion             obtaining a prevention of 
                                                                                                          significant deterioration 
                                                                                                          permit and without 
                                                                                                          installing best available 
                                                                                                          control technology. 
          PRASA V – Puerto  02‐2004‐ Civil Judicial         CWA            Y     Federal penalty =        Violations of NPDES permits 
  2007 




          Rico Aqueduct and  0008                           301/402,             $1 million               at 61 wastewater treatment 
          Sewer Authority                                   301                  SEP cost =               plants throughout Puerto 
                                                                                 $2.6 million             Rico. 
                                                                                 Injunctive relief = 
                                                                                 $1.7 billion 
          City of Indianapolis  05‐2000‐ Civil Judicial     CWA 301,       Y     Federal penalty =        Settlement related to the 
                                0583                        301/402              $558,900                 City of Indianapolis 
                                                                                 SEP cost = $2 million    developing and 
                                                                                 Injunctive relief =      implementing a long‐term 
                                                                                 $1.9 billion             control plan to eliminate 
                                                                                                          sanitary overflows, 
                                                                                                          implement all feasible 
                                                                                                          alternatives to bypassing at 
                                                                                                          the city’s two wastewater 
                                                                                                          treatment plants, and to 
                                                                                                          ensure the city’s combined 
                                                                                                          sewer overflows comply 
                                                                                                          with the CWA. 




     13-P-0168                                                                                                               19
 
Fiscal                                                                                Monetary 
Year                            Case                 Laws and           NEI      enforcement results 
              Case name        number  Case type  sections             (Y/N)          (rounded)                  Case summary 
          Allegheny County  03‐2000‐ Civil Judicial  CWA                  Y     Federal penalty =        Under certain conditions, 
          Sanitary Authority  0106                    301/307,                  $400,000                 materials are diverted from 
          (ALCOSAN)                                   301/402,                  SEP cost = $3 million    the path leading to the 
                                                      301                       Injunctive relief =      treatment plant and instead 
                                                                                $1.4 billion             flow out of an outfall into 
                                                                                                         the waters of the U.S. The 
                                                                                                         diversion of material from 
                                                                                                         the sewer system to the 
                                                                                                         outfall is controlled in 
                                                                                                         whole or in part by 
                                                                                                         ALCOSAN. While there are 
                                                                                                         315 outfalls throughout the 
                                                                                                         system that carry material 
                                                                                                         to ALCOSAN, the sanitary 
                                                                                                         authority is only permitted 
                                                                                                         in its NPDES permit to 
                                                                                                         discharge from 3 (out of 
                                                                                                         315) outfalls under certain 
                                                                                                         conditions. 
  2008 




          American Electric    03‐1999‐ Civil Judicial    CAA 111,        Y     Federal penalty =        Company did not comply 
          Power Company        0388                       165, 173,             $6.2 million             with  prevention of 
          (National Case)                                 110                   Injunctive relief =      significant deterioration 
                                                                                $1.9 billion             permit requirements when 
                                                                                                         it implemented at least nine 
                                                                                                         capital improvement 
                                                                                                         projects, resulting in a 
                                                                                                         significant increase in SO2, 
                                                                                                         NOx, and/or particulate 
                                                                                                         matter emissions without a 
                                                                                                         permit. 
          Muskingum River      05‐1999‐ Civil Judicial    CAA 110,        Y     Federal penalty =        AEP failed to apply for a 
          Station, AEP         0644                       111, 165              $8 million               permit prior to 
          (Ohio Power)                                                          Injunctive relief =      commencing major 
          (National Case)                                                       $2.5 billion             modifications under  
                                                                                                         prevention of significant 
                                                                                                         deterioration permit and 
                                                                                                         new source performance 
                                                                                                         standards, and failed to 
                                                                                                         install  best available 
                                                                                                         control technology. 
          New York City        02‐2010‐ Administrative ‐ SDWA            N      Injunctive relief =      Administrative order issued 
          Department of        8027     Formal           1412/141               $1.6 billion             to establish an enforceable 
          Environmental                                  4                                               schedule to achieve 
  2010 




          Protection                                                                                     compliance with the 
                                                                                                         requirements of SDWA and 
                                                                                                         the Long Term 2 Enhance 
                                                                                                         Surface Water Treatment 
                                                                                                         Rule. 




     13-P-0168                                                                                                              20
  
 Fiscal                                                                                 Monetary 
 Year                             Case                   Laws and         NEI      enforcement results 
              Case name          number  Case type  sections             (Y/N)          (rounded)                  Case summary 
           Hamilton County      05‐1998‐ Civil Judicial  CWA                Y     Injunctive relief =      Hamilton County (Ohio) 
                                0750                      301/402,                $1.79 billion            owns six municipal 
                                                          301                                              wastewater treatment 
                                                                                                           plants and the sewer 
                                                                                                           system that feeds into 
                                                                                                           these  wastewater 
                                                                                                           treatment plants. For a 
                                                                                                           number of years, the 
                                                                                                           defendants have violated 
                                                                                                           the CWA in several 
                                                                                                           significant respects. 
           City of Kansas City,  07‐2004‐ Civil Judicial    CWA             Y     Federal penalty =        Violation of a permit. 
           Missouri              0333                       301/402               $600,000 
                                                                                  SEP cost =  
                                                                                  $1.4 million 
                                                                                  Injunctive relief = 
                                                                                  $2.4 billion 
           General Electric     02‐2005‐ Civil Judicial     CERCLA         N      Injunctive relief =      Consent decree related to 
           Company              0015                        170A,                 $2.1 billion             the Hudson River PCBs 
                                                            106A                                           Superfund Site. 
           NEORDS –             05‐2003‐ Civil Judicial     CWA 308,        Y     Federal penalty =        Combined sewer overflow 
           Cleveland            0627                        301/402               $600,000                 violations. 
                                                                                  SEP cost = $1 million 
                                                                                  Injunctive relief = 
                                                                                  $3 billion 
           Honolulu, City and  09‐1991‐ Civil Judicial      CWA             Y     Federal penalty =        City and County of Honolulu 
           County              0033                         301/307,              $800,000                 failed to develop and 
                                                            301/402,              Injunctive relief =      administer a pre‐treatment 
   2011 




                                                            309, 402,             $3.7 billion             program at seven (of eight) 
                                                            301                                            treatment plants. Also, 
                                                                                                           chronic releases of raw 
                                                                                                           wastewater to surface 
                                                                                                           water. 
           Tennessee Valley     04‐2010‐ Administrative ‐ CAA 165           Y     Injunctive relief =      Injunctive relief secured at 
           Authority            1760     Formal                                   $5 billion               all of Tennessee Valley 
                                                                                                           Authority’s coal‐fired power 
                                                                                                           plants across three states to 
                                                                                                           resolve alleged violations of 
                                                                                                           the CAA New Source 
                                                                                                           Review provisions. 
Source: OIG analysis of EPA enforcement case summaries.




      13-P-0168                                                                                                               21
                                                                                   Appendix C

                  Agency Response to Draft Report

                                       January 18, 2013

MEMORANDUM

SUBJECT:       Response to Office of Inspector General Draft Report No. FY12-0018: Response
               to Congressional Request on EPA Enforcement, dated December 19, 2012

FROM:          Cynthia Giles. Assistant Administrator
               Office of Enforcement and Compliance

TO:            Carolyn Copper
               Assistant Inspector General for Program Evaluation

The Office of Enforcement and Compliance Assurance and Region 7 appreciate the opportunity
to respond to the draft report Response to Congressional Request on EPA Enforcement, dated
December 19, 2012. We agree that enforcement results can vary from year to year and from
region to region based on when and where large cases are concluded. Because there are no
findings or recommendations in this report, our response only addresses the factual accuracy of
the draft report. Technical corrections to address factual accuracy are proposed in the attached
document.

If you have any questions regarding this response, please contact Susan Shinkman, Director,
Office of Civil Enforcement at (202) 564-2220.

cc: 	   Karl Brooks, Region 7
        Kathy Finazzo, Region 7
        Lauren Kabler. OECA-OCE
        Stephen Keim, OECA-OSRE
        Lisa Lund, OECA-OC
        Mamie Miller, OECA-OC
        Erin Miles, OECA-AA
        Susan Shinkman, OECA-OCE
        Gwendolyn Spriggs, OECA-OAP




13-P-0168                                                                                     22
                                                                              Appendix D

                                   Distribution
Office of the Administrator
Assistant Administrator for Enforcement and Compliance Assurance
Regional Administrator, Region 7
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Associate Administrator for Policy
Deputy Administrator, Region 7
Audit Follow-Up Coordinator, Office of Enforcement and Compliance Assurance
Audit Follow-Up Coordinator, Region 7




13-P-0168                                                                           23
